audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Hayward Police Department
	California
GR-90-99-017
August 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of five grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Hayward Police Department (HPD), California.  The HPD received a grant of $75,000 to hire 1 sworn officer under the Accelerated Hiring, Education and Deployment Program (AHEAD) and $1,050,000 to hire 14 sworn officers under two Universal Hiring Program grants (UHP I and UHP II).  In addition, the HPD received $93,750 to redeploy 20 sworn officer full-time equivalents (FTEs) to community policing under the Making Officer Redeployment Effective program (MORE 95) and $112,500 to redeploy 4.5 sworn officer FTEs to community policing under the MORE 96 program.  The purpose of the additional officers under the grant program is to enhance community policing efforts.

	We found the following weaknesses during our audit regarding grant conditions:

The HPD charged the AHEAD/UHP grants unallowable costs of $4,140 (federal share) for sick leave and vacation leave.

	The HPD generally was not in compliance with the grant reporting requirements.  The Department Initial Report overstated the number of sworn officers.  Twenty-seven of the required 28 Financial Status Reports (FSRs) were not submitted timely for the AHEAD/UHP (15 late), MORE 95 (7 late), and MORE 96 (5 late).  In addition, the total program costs reported on the FSRs for the AHEAD/UHP grants were not accurate.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.